CERTIFICATE OF SERVICE
I, David B. Alden, counsel for Applicant and a member of the Bar of this
Court, hereby certify that on the 29th day of May, 2019, a copy of this Application
for Extension of Time to File a Petition for Writ of Certiorari in the above-captioned
case was mailed via UPS overnight to counsel for the respondent below. I further
certify that all parties required to be served have been served.
Sherri B. Walsh
Jacquenette S. Corgan
SUMMIT COUNTY
PROSECUTOR’S OFFICE
53 University Avenue
6th Floor
Akron, Ohio 44308
(330) 643-2800
jcorgan@prosecutor.summitoh.net

Benjamin M. Flowers
OFFICE OF THE OHIO
STATE SOLICITOR
30 E. Broad Street
14th Floor
Columbus, OH 43215
(800) 282-0515

Counsel for Respondent

/s/ David B. Alden
David B. Alden (Counsel of Record)
JONES DAY
North Point, 901 Lakeside Avenue
Cleveland, Ohio 44114
(216) 586-7121
dbalden@jonesday.com
Counsel for Applicant

